                                                       United States Attorney's Office
                                                       Eastern District of New York

                                                       Robert Nardoza
                                                       Public Affairs Officer

                                                       (718) 254-6323
                                                       Robert.Nardoza@usdoj.gov




FOR IMMEDIATE RELEASE                      November 28, 2007




                                 PRESS RELEASE


TWO OFFICIALS IN BRIDGES DIVISION OF NEW YORK CITY DEPARTMENT OF
          TRANSPORTATION CHARGED IN BRIBERY SCHEME



  Defendants Rigged Settlement of Multi-Million Dollar Claim Involving Reconstruction of
                                  Third Avenue Bridge




        BALRAM CHANDIRAMANI, also known as “Balu,” the Director of Movable
Bridges for the New York City Department of Transportation (“NYC/DOT”), and
UDAY SHAH, an Assistant Civil Engineer for NYC/DOT, were arrested last night for
their participation in a $450,000 bribery scheme involving the reconstruction of the
Third Avenue Bridge.

       The charges announced today are merely allegations, and the defendants are
presumedinnocent unless and until proven guilty.

       The defendants’ initial appearances are scheduled for later today before United
States Magistrate Judge Marilyn D. Go at the U.S. Courthouse, 225 Cadman Plaza East,
Brooklyn, New York.
        As alleged in the complaints unsealed today, in 2001 a construction corporation
with offices in Long Island City, New York (“the corporation”) contracted with
NYC/DOT to serve as the general contractor for replacement of the Third Avenue
Bridge, a movable bridge located at 129th Street and Third Avenue that spans the
Harlem River between Manhattan and the Bronx. A movable bridge carries pedestrian
and/or vehicular traffic across a navigable waterway and can open to permit the passage
of a ship, barge, or boat. Work on the bridge began in July 2001 and was completed in
November 2006. In March 2007, the corporation submitted a claim for $16,500,000
(“the claim”) to the New York City Office of the Comptroller, arising from various
contract disputes it had with the NYC/DOT. Although the claim was submitted to the
Comptroller’s Office, the parties were still authorized to negotiate a settlement, which
would have to be approved by the NYC/DOT’s Legal Department, Division of Bridges,
Engineering Audit Bureau, and ultimately, the Commissioner of NYC/DOT.

The Bribery Scheme



        As alleged in the complaints, in late 2006 an executive of the corporation met
with SHAH and sought his help in resolving the claim favorably to the corporation.
SHAH agreed to assist and promptly began to provide the executive with confidential
information regarding the NYC/DOT’s negotiating position on settlement amounts for
the various items in the claim. SHAH also enlisted CHANDIRAMANI’s help in the
scheme and set up at a face-to-face meeting between the executive and
CHANDIRAMANI in March 2007. During a series of meetings recorded by the
executive under law enforcement supervision, the executive and CHANDIRAMANI
agreed that the executive would pay CHANDIRAMANI an amount equal to 10 % of
any settlement amount exceeding $2,500,000 – which CHANDIRAMANI represented
was the highest amount that the corporation would likely receive if the claim was
resolved by the Comptroller. CHANDIRAMANI promised that he could work behind
the scenes and guarantee a settlement between $6.5 million and $6.6 million, in
exchange for a $400,000 bribery payment. At several ensuing meetings, all recorded by
the executive:

               CHANDIRAMANI gave the executive details about the City’s negotiating
               position and explicit instructions on how to handle upcoming settlement
               negotiations between the executive and the City, including how to frame a
               counter-offer, to increase the amount of money the corporation might
               receive.
              CHANDIRAMANI assured the executive that he could “work on the
              [settlement] numbers” and convince any City officials “who needed
              convincing.”



              Immediately before the settlement negotiations with NYC/DOT officials
              in June 2007, SHAH gave the executive a spreadsheet he prepared at
              CHANDIRAMANI’s direction, reflecting the City’s minimum and
              maximum settlement amounts for each item of the claim – each of which
              was in fact created by SHAH as part of the scheme. SHAH later explained
              to the executive that he had inflated the amounts on the spreadsheet so that
              if other City officials “chipped away” at them, the settlement amount
              would still be $6.5 million.



         CHANDIRAMANI requested $400,000 in bribery payments – $200,000 in cash
and $200,000 by wire transfer to a relative’s bank account in Dubai, U.A.E. To
facilitate the wire transfer, CHANDIRAMANI gave the executive a phony invoice for
the corporation’s purchase of $200,000 worth of men’s clothing from the relative’s
export company in Dubai. On August 23, 2007, the executive gave CHANDIRAMANI
$10,000 in cash as an initial payment. CHANDIRAMANI and the executive also
agreed that they would each give SHAH $50,000 for his role in facilitating the
settlement and, on September 13, 2007, the executive paid SHAH $5,000 in cash.

       CHANDIRAMANI was arrested last night after accepting a second cash payoff
of $50,000.

       “Our government, at any level, is not for sale,” stated United States Attorney
Benton J. Campbell. “Those who illegally feed at the public trough can expect to be
met with the full resources of law enforcement.”

       “This investigation of alleged bribery within the New York City metropolitan
area demonstrates that those entrusted with the stewardship of taxpayer dollars and
oversight of transportation infrastructure projects will be held responsible for
maintaining the highest level of integrity,” said Ned E. Schwartz, Special Agent-in-
Charge, U.S. Department of Transportation Office of Inspector General (DOT OIG).
“The Secretary of Transportation has made accountability a top DOT priority, and
working with our law enforcement colleagues we will continue our vigorous efforts to
promote the prevention, detection, and prosecution of procurement and grant fraud.”

        Robert E. Van Etten, Inspector General, The Port Authority of New York and
New Jersey, stated, “I want to commend United States Attorney Benton J. Campbell
and his staff for bringing this prosecution and the superb investigative work performed
by the investigative agencies. This investigation exhibits how vigilant law enforcement
must be in monitoring the conduct of government employees and contractors. The
agencies that participated in this investigation pay particular attention to public
construction projects to insure their integrity. Contractors and those government
employees that oversee their work play an important role in performing repairs on
facilities that millions of citizens travel over each year. For either party to violate their
responsibility places the public and public funds at risk.”

         New York City Department of Investigation Commissioner Rose Gill Hearn
stated, “Two New York City Department of Transportation employees are charged with
soliciting payoffs and betraying the trust the City and taxpayers placed in them.
Municipal employees who try to compromise the integrity of the City workforce should
know that DOI will continue to work with state and federal authorities to pursue this
type of criminal conduct.”

       If convicted, CHANDIRAMANI and SHAH each face a maximum sentence of
10 years’ imprisonment and a $250,000 fine.

       The government’s case is being prosecuted by Assistant United States Attorney
Sarah Coyne.



The Defendants:



Name: BALRAM R. CHANDIRAMANI
Age: 65



Name: UDAY SHAH
Age: 46
